Semiannual Report to the Congress
    Office of the Inspector General
                         March 2012
  This semiannual report features the art and architecture of the Library of Congress, including exterior images
  which show its proximity to the United States Capitol and interior photographs of the ornamental details
  contained in the Librarian’s Ceremonial Office.

  The vintage photograph of the Main Reading Room in the Thomas Jefferson Building, above, was taken by
  Peter C. Costas in 1961. The photographer used a fish-eye lens, giving the image its characteristic circular
  view. (Prints and Photographs Collection)




Cover: Library of Congress, Thomas Jefferson Building, exterior front
showing stairway. Prints and Photographs Collection
March 31, 2012


A Message From the Inspector General
In the last six months we prepared reports on an assessment of the Library’s information
technology (IT) security program (including penetration testing), progress on IT strategic
planning, management and cost containment on a large IT contract for help desk services, IT
controls for the Librarian’s document and correspondence tracking system, the performance of
the Contracts Office, funds lost through expiration at the end of fiscal year (FY) 2011, the
sufficiency of the Library’s fire suppression systems, the operations of the acquisitions fiscal office,
the Library’s FY 2011 consolidated financial statements, and other reviews. During this period,
investigations focused on misuse of public workstations in reading rooms and other computers,
a missing artifact, and several other matters.

In the next six months, we will report on in-progress reviews of IT workstation management,
collections development, Asian Division collections security and management, criteria for
internal control reviews of field offices, potential contractor overcharges, thefts, and FY 2011
financial statements of the Open World Leadership Center and James Madison Council.

This period, our reviews identified $771,163 in questioned costs and $55,220 in funds to be put
to better use. We are pleased to report that the Library implemented 30 of our recommendations
from prior semiannual periods.

Our publicly released reports are available online at www.loc.gov/about/oig. We appreciate the
cooperative spirit Library staff have shown during our reviews.




Karl W. Schornagel
Inspector General
Table of Contents


 In Summary.......................................................................................................................................         1
 Top Management Challenges........................................................................................................                         7
 Profiles...............................................................................................................................................   11

 Audits, Surveys, and Reviews........................................................................................................                      15
    Analysis of Workload and Staffing in the Office of Contracts................................................................                           15
        Weaknesses in the Acquisition Function ............................................................................................                16
        Oversight of the ITS Help Desk Contract..........................................................................................                  19
        IT Security Assessment...................................................................................................................          20
        Follow-up Review of IT Strategic Planning.........................................................................................                 21
        Survey of the ccmMercury IT System.................................................................................................... 23
        Survey of the Library’s Fire Suppression Systems.................................................................................                  24
        Library of Congress FY 2011 Financial Statements.............................................................................                      26
 Investigations..................................................................................................................................... 27
         Significant Criminal and Administrative Investigations......................................................................                      29
         Follow-up on Investigative Issues from Prior Semiannual Periods...........................................................                        32
 Other Activities................................................................................................................................          33
 Review of Legislation and Regulations........................................................................................ 35
 Unimplemented Recommendations................................................................................................. 36
 Implemented Recommendations...................................................................................................                            43
 Funds Questioned or Put to Better Use...................................................................................                                  47
 Instances Where Information or Assistance Requests Were Refused................................... 48
 Status of Recommendations Without Management Decisions................................................ 48
 Significant Revised Management Decisions................................................................................. 48
 Significant Management Decisions With Which OIG Disagrees.........................................                                                        48
 Follow-up on Prior Period Recommendations............................................................................. 48
 Organizational Chart...................................................................................................................... 49
 Hotline Information...............................................................................................Inside Rear Cover




Left: Dome of the Capitol with information kiosk of the James Madison Memorial Building in the foreground.

Photograph by Charles Gibbons
                                In Summary . . .
                                Audits, Surveys, and Reviews
                                The Library has a well-documented history of contracting problems, as
                                repeatedly reported by the Office of the Inspector General (OIG) over the
                                last 10 years. Based on our ongoing concerns, we initiated two projects
                                in this area during this semiannual period: a review of staffing and an
                                evaluation of the performance of the Office of Contracts Management
                                (OCM).

                                The staffing review was conducted in response to a OCM request for
                                assistance in evaluating its staffing levels. We compared recent workload
                                and staffing data of the office with corresponding data from six other federal
                                agency procurement organizations. Our review provided no significant
                                indications that the Library’s contract specialists managed a greater or
                                more difficult workload during fiscal years (FYs) 2009 and 2010 than their
                                counterparts in other agencies. Nevertheless, the results of our review,
                                taken into consideration with other factors, provided information which
                                the OCM could use in making appropriate decisions regarding future
                                staffing levels.

                                We also engaged Jefferson Solutions (Jefferson), a consulting firm with
                                expertise in the federal acquisitions process, to perform an evaluation of
                                the current state of the OCM as a follow-up to our 2008 report. Jefferson
                                identified many deficiencies and weaknesses in the OCM management,
                                including problems with infrastructure and numerous technical deficiencies
                                at critical steps in the contracting process. Additionally, Jefferson reported
                                problems with the OCM’s interactions with customers in the areas of
                                planning, knowledge, responsibilities, and service. These issues involved
                                poor communication and cooperation between the OCM and its customers.

                                Despite bringing problems with the contracts function to management’s
                                attention repeatedly over the past 10 years, our assessment of Jefferson’s
                                report is that senior Library management’s corrective efforts have been
                                unsuccessful and the performance of the OCM has further deteriorated.

                                In our view, if the Library is to be accountable for its annual expenditures of
                                about 210 million taxpayer dollars, executive leadership must fully commit
                                to developing a corrective action plan that specifically and thoroughly
                                addresses the more than 50 recommendations provided in Jefferson’s report,
                                and make it a top management priority to aggressively implement the plan.
                                Also during this semiannual period we followed up on our 2009 assessment


Right: Dome of the Thomas Jefferson Building with the torch of knowledge.

Photograph by Charles Gibbons

 1 • Semiannual Report to the Congress
of the Library’s Information Technology (IT) strategic plan. That report had
concluded that the Library’s IT strategic plan was not adequately integrated
with its overall strategic plan, and that essential planning components were
lacking. The report also identified improvements needed in five key areas:
strategic planning, IT investment, enterprise architecture, organizational
structure, and customer service.

Although we found that the Library had implemented many
recommendations from that report, we expected that the
Library would have made further progress.

The Library’s Information Technology Services (ITS)
directorate has overall administrative and technical
responsibility for managing the Library’s IT
and telecommunication programs, systems,
and services. To meet this responsibility,
ITS relies heavily on contractors
for many functions, including
crucial IT help desk services.

During this period we reported
on the results of our audit
of ITS’ administrative and
management controls over the
November 2008 IT help
desk contract.
                                Our audit found that ITS did not adequately monitor the contractor’s billings
                                for two significant help desk task orders. As a result, ITS improperly paid
                                for inflated overtime rates, unauthorized overtime, and charges to incorrect
                                labor categories. We identified $55,220 that ITS is currently trying to
                                recoup from the vendor and $771,163 in unsupported charges that it is
                                                      attempting to substantiate. Additionally, ITS took no
                                                      action to avoid the appearance of a conflict of interest
                                                      which arose in the time leading up to and following
                                                      the contract award.

                                                           We also contracted with the consulting firm of
                                                           CliftonLarsonAllen, LLP (CLA) to perform an
                                                           assessment of the Library’s IT security program.
                                                           CLA’s primary tool was the use of penetration testing
                                                           to assess the Library’s vulnerabilities.

                                                           CLA conveyed its findings to Library management,
                                                           which analyzed the results and submitted a corrective
                                                           action plan.

                                                           We evaluated the quality and management of the
                                                           Library’s fire suppression systems during this period.
                                                           We found that the Library’s systems are similar to
                                                           those in use by other, similar institutions, and that an
                                                           appropriate testing protocol was in place. We made
                                                           no recommendations in this report.

                                                     We also initiated an audit to assess application
                                                     controls and user access rights for ccmMercury, a
                                document and correspondence tracking software application managed
                                by the Office of the Librarian. Based on our audit survey, we concluded
                                that further review was unnecessary. We may revisit this area after Library
                                management performs a certification and accreditation on a major upgrade
                                to the program, that was tentatively scheduled for March 2012.

                                Lastly, under contract with our office, CLA issued a “clean” opinion on the
                                Library’s FY 2011 consolidated financial statements.

                                These reports are further discussed beginning on page 15.


Above: The United States Capitol as seen from the Ralph Waldo Emerson Collection in the Library’s Jefferson Building.
Photograph by Charles Gibbons
 3 • Semiannual Report to the Congress
Investigations

In this period, OIG investigators worked with the U.S. Capitol Police to
arrest a patron searching for child pornography on a public workstation in a
Library reading room. The individual, previously convicted of a sex offense,
was later extradited to Pennsylvania on an outstanding warrant for a parole
violation. An employee of another federal agency, assigned workspace and a
computer at the Library, was removed from their position following an OIG
investigation into persistent malicious computer code infestation related to
downloading large amounts of pornography on their Library workstation.

Due to the significant number of OIG investigations concerning
pornography, we conducted a project to bring together the results of several
recent related investigations involving the Library’s public workstations.
The resulting report recommended measures to further enforce the Library’s
policy on the use of public workstations. The Library is researching options
and taking steps to respond to the issue.

We investigated a report of a valuable scroll found to be missing from a
secured area in the Library’s Asian Division. Although the scroll was later
inexplicably found, the investigation revealed several collections security
vulnerabilities. OIG auditors are now conducting an audit to further
explore collections security and management issues in that Division.

The OIG is cooperating with the FBI concerning a denial of service attack
on the U.S. Copyright Office Web site related to pending intellectual
property legislation. This follows similar attacks reported in our March
2011 Semiannual Report to Congress and may be related to global cyber-
attacks.

We conducted an investigation that confirmed allegations from a contractor
that the Library initially failed to evaluate its bid in a contract award. Aware
of the issue, the Library re-bid the contract. We determined that the second
award was properly made. We, however, recommended that the OCM
establish stronger controls to ensure all bids are received, accounted for,
and evaluated prior to award. These actions will ensure the Library always
receives the best value for its contracting dollars and is shielded from bid
protests.




                                                   Semiannual Report to the Congress • 4
                                 In a previously reported case concerning overseas pirating of talking books
                                 produced by the Library’s National Library Service for the Blind and
                                 Physically Handicapped, the Library confirmed that there was no legal
                                 basis for distributing the books to parties other than U.S. citizens living
                                 abroad and suspended their distribution.

                                 These and other investigations are further discussed beginning on page 27.

                                 Other Activities

                                 We reviewed and analyzed the work flows and related systems of internal
                                 control of the acquisition processes within Library Services’ (LS) fiscal
                                 office.

                                 As part of this project, we reviewed acquisition transaction flows,
                                 constructed detailed flowcharts, and explained each step within the charts
                                 with a supplemental narrative. While we made no recommendations,
                                 we did assist LS in targeting areas to strengthen by identifying areas of
                                 weakness within these processes.

                                 Also during this semiannual period we determined that more than $1 million
                                 in FY 2011 funds expired due to various coordination and communication
                                 problems related to the OCM and, in some cases, the Facilities Design and
                                 Construction Office.

                                 Our review led us to believe that with better planning and communication
                                 from the OCM, the Library could have redirected these funds instead of
                                 losing them.

                                 Lastly, based on an inquiry from the Library’s General Counsel regarding
                                 OIG access to Library employee email, we communicated the duties and
                                 statutory rights of the OIG, as well as the practices the Library and our
                                 office have put into place for initiating and carrying out investigations.

                                 These activities are discussed further beginning on page 33.




Right: Marble engraved wall outside the Librarian’s Ceremonial Office in the Jefferson building.
The wall lists the 13 Librarians of Congress.

Photograph by Walter E. Obando

 5 • Semiannual Report to the Congress
                 Top Management Challenges
                 This section provides a collective summary of issues that have been covered
                 over several years of OIG reviews that in our view represent long-term
                 challenges for the Library.

                 Facilities

                 Collections Storage—The Library currently faces a challenge in its mission
                 to properly store and preserve its collections. The floors in the stacks of
                 the Jefferson and Adams buildings are now being used to store the general
                 collections and the Library is double- and triple-shelving materials. There
                 are upwards of a million overflow volumes. The original construction
                 schedule for Fort Meade collection storage modules would have provided
                 space to house these collections and space for continuing expansion, but
                 the last module intended to store general collections was completed in 2005
                 and filled in 2011. Modules 3 and 4, completed in 2009, were intended
                 for special format collections, which include items such as maps, globes,
                 manuscripts, prints and photographs, sheet music, and more. The modules
                 are currently on track to be filled by October 2012. No funding has been
                 appropriated for future modules at this time.

                 Although the Library is seriously addressing the overflow issue by installing
                 shelving for high-density storage at its Landover warehouse, this facility will
                 only be able to house about a million volumes. As the Library adds about
                 250,000 books and periodicals to the collections each year, the shortage of
                 space will continue to grow. Further exacerbating this issue is the lack of
                 secure storage for some rare and valuable collections. The Law Library, and
                 the Music and Asian Divisions, among others, have been forced to store
                 some of their rare materials in less-than-optimal conditions from a security
                 and environmental point of view.

                 Reading Room Space Allocations—The Internet age has allowed
                 the Library to increase public access to its collections by digitizing and
                 placing them online. The Library, through various cutting-edge programs,
                 including the National Digital Information Infrastructure and Preservation
                 Program is at the forefront of preserving and making accessible digital
                 content. Today, the Library’s Web site, www.loc.gov, is among the Internet’s
                 most visited, with billions of page hits annually, and unrivaled depth and
                 richness of content. However, this shift in access modalities has resulted in a
                 significant decrease in the in-person use of Library materials and resources.




7 • Semiannual Report to the Congress
Consequently, there is a significant amount of underutilized reading room
space. Despite the downward trend in readership, the Library has delayed
making decisions about possibly consolidating reading rooms. Better
utilization of reading room space could result in significant economy and
efficiency by shifting space to collections storage.

Conference and Training Rooms—An OIG audit identified an increasing
number of conference and training facilities in the Library’s James Madison
Memorial Building. In 2008 there were more than 120 such facilities in
the building totaling more than 42,000 square feet which were, in many
cases, underutilized. Consolidating and centrally locating and managing
conference and training rooms, as the Copyright Office has done, would
make a substantial contribution toward efficiency in the Library’s use of
floor space.

Information Technology
Infrastructure

In 2009 we issued an audit report that focused
broadly on the Library’s plan for managing its IT
infrastructure investments. The audit looked at
1) whether the Library’s IT strategic plan aligned
with its overall strategic plan, 2) the validity and
integrity of the IT plan, 3) the appropriateness
and effectiveness of the Library’s IT organizational
structure and placement, and 4) the extent to
which relevant recommendations made by the
National Research Council in a 2000 report were
implemented by the Library. We made a series of
recommendations about 1) maturing the Library’s
IT strategic planning process, 2) making IT investments from a cost/benefit
and institution-wide perspective, 3) considering organizational changes,
4) implementing an Enterprise Architecture program for planning future
technology, and 5) improving customer service.

In FY 2010, the Library obligated $107 million for IT related expenditures
(37% of its discretionary budget) for services, hardware, software, and
maintenance. We followed up in detail on this report during the semiannual
period. In general, we found that the Library had implemented, or was
implementing, most of our recommendations, although progress was



                                              Above: Detail of Librarians of Congress engraved wall.
                                              Photograph by Abby Brack

                                               Semiannual Report to the Congress • 8
                             slower than we had expected. We believe Library management’s continued
                             focus on implementing these recommendations will result in substantial
                             long-term efficiencies.

                             In 2002, the Library opened a new Alternate Computing Facility (ACF).
                             The purpose of the facility was to provide backup storage for data located on
                             Capitol Hill and a recovery mechanism for important software applications
                             so that the Library could resume
                             business in at least a limited capacity
                             in the absence of its Capitol Hill
                             data center. In 2009, we reported
                             that it was unclear whether or not
                             the ACF could successfully provide
                             service to its customers in the event
                             of a catastrophic failure of the main
                             data center. Although the Library
                             has developed plans for testing,
                             there have been significant delays,
                             and exceedingly restricted resources
                             could result in further delays. As
                             the Library’s financial system is now
                             cross-servicing four external clients,
                             delays in failover testing become
                             increasingly important.

                             Four OIG reports were issued
                             during this semiannual period to
                             address these and other IT related
                             management challenges. A detailed
                             description of this work begins on
                             page 19 of this report.

                             Performance-Based
                             Budgeting

                             As a result of an OIG audit, and at the direction of Congress, the Library
                             is adopting a performance-based budgeting system loosely related to
                             the Government Performance and Results Act. Previously, the Library
                             was using a budgeting system that primarily analyzed only incremental
                             additions to the base, or new initiatives. Modern budgeting systems require
                             that programs be evaluated each budget cycle, and funds be allocated based

Center: Librarian’s Ceremonial Office showing two of four circular murals by Edward J. Holslag.

Photograph by Carol Highsmith

 9 • Semiannual Report to the Congress
on this analysis. The adoption of performance-based budgeting will allow
the Library to better analyze and report its activities and more successfully
compete for diminishing discretionary funding. The Library has revamped
its strategic planning model and updated its policy on planning, budgeting,
and program performance assessment. Library Services has implemented
notable improvements. However, there is still much more work to be done.
The Library has not yet developed a mechanism for evaluating programs,
                                     developing consistent, valid, and
                                     verifiable metrics, or a methodology
                                     that would at least begin to relate
                                     resource allocations to program
                                     performance.

                                      Contracting

                                      A series of OIG reports dating back
                                      to 2002 document weaknesses that
                                      have beset the Library’s contracting
                                      function. Principal areas of concern
                                      include questionable understanding
                                      of federal contracting by participants
                                      in the contracting chain from the
                                      service units to the contracting
                                      office; poorly trained staff; a lack
                                      of continuity in leadership in the
                                      OCM; a technically questionable
                                      financial system contracting module;
                                      and ineffective contract review
                                      procedures. These deficiencies may
                                      prevent the Library from obtaining
                                      the best value in contracts and expose
                                      the Library to an unacceptably high
                                      risk of inefficiency and waste of funds.

Work we conducted during this semiannual period concluded that the
weaknesses we have reported in the Library’s contracting function continue,
and in fact, the function has further deteriorated since our last report in
2008. We believe that total improvement in the Library’s contracting
function is the only acceptable outcome. We will actively monitor and
report on progress in this area. We released two reports regarding this
challenge during this period. Detailed descriptions of these reports begin
on page 15 of this semiannual report.



                                              Semiannual Report to the Congress • 10
                                 Profiles
                                 Library of Congress
                                 The Library of Congress is the research and information arm of the United
                                 States’ national legislature and the world’s largest storehouse of knowledge.
                                 The mission of the Library is to support the Congress in fulfilling its
                                 constitutional duties and to further the progress of knowledge and creativity
                                 for the benefit of the American people. The mission is accomplished through
                                 more than 4,000 employees and contractors, and $800 million in annual
                                 appropriated funds and other financing sources.

                                 Founded in 1800, the Library of Congress is also the nation’s oldest federal
                                 cultural institution, holding more than 151 million items on 838 miles
                                 of shelves. These items include books, manuscripts, maps, prints and
                                 photographs, printed music, sound recordings, films, and microforms. Half
                                 of the Library’s collections are from outside the United States, representing
                                 470 languages. In addition to its three Capitol Hill buildings and Taylor
                                 Street Annex in Washington, DC, the Library operates six overseas offices
                                 and stores collections material in purpose-built facilities in Maryland and
                                 at the National Audio Visual Conservation Center in Culpeper, Virginia.
                                 Nearly 31.4 million original source analog items have been digitized and
                                 are accessible at www.loc.gov. The Library also holds an exponentially
                                 expanding collection of digital-born content.

                                 The Library’s core organizational components are:

                                     •	     The Office of the Librarian,
                                     •	     Library Services,
                                     •	     The U.S. Copyright Office,
                                     •	     The Congressional Research Service,
                                     •	     The Law Library,
                                     •	     The Office of Strategic Initiatives, and
                                     •	     The Office of Support Operations.

                                 The Office of the Librarian provides leadership and executive management
                                 to the Library, overseeing the implementation and management of the
                                 Library’s mission to support the Congress in fulfilling its constitutional
                                 duties and to further the progress of knowledge and creativity for the
                                 benefit of the American people.




Right: Detail of a decorative mural inside the Librarian’s Ceremonial Office.

Photograph by Carol Highsmith

 11 • Semiannual Report to the Congress
Library Services performs the traditional functions of a national library:
acquisitions, cataloging, preservation, and reference services for both digital
and conventional collections. It operates the National Library Service for
the Blind and Physically Handicapped and the American Folklife Center,
among other programs.

The U.S. Copyright Office administers the copyright laws of the nation and
registers copyrightable material; its deposits of intellectual material (books,
music, and movies) substantially contribute to the Library’s collections.

The Congressional Research Service supports the legislative process by
providing exclusively to Congress objective, confidential assessments of
public-policy issues, and legislative options for addressing those issues.

The Law Library assists Congress and the legislative process by supporting
comprehensive research on foreign, comparative, international and U.S.
law, and other legal reference services.

The Office of Strategic Initiatives directs the national program for long-
term preservation of digital cultural assets, leads a collaborative institution-
wide effort to develop consolidated digital future plans, and integrates the
delivery of IT services.

The Office of Support Operations provides centralized leadership and
oversight of infrastructure services and includes: Human Resources
Services, Integrated Support Services, the Office of Security and Emergency
Preparedness, the Office of Contracts and Grants Management, and the
Office of Opportunity, Inclusiveness, and Compliance.
                                Last year, services provided by the Library included:

                                    •	    Fulfilling 508,830 reference requests,
                                    •	    Circulating 25 million disc, cassette, and Braille items to more 	
                                	         than 800,000 blind and physically handicapped patrons,
                                    •	    Registering 670,044 copyright claims,
                                    •	    Receiving 22,000 items daily and adding more than 10,000 items 	
                                	         daily to 	its collections,
                                    •	    Responding to more than 763,000 congressional reference requests 	
                                	         and delivering to Congress more than 1 million research products and
                                	         approximately 30,000 volumes from the Library’s collections, and
                                    •	    Providing to Congress access to more than 7,400 reports on 	
                                	         legislative issues and preparing more than 1,700 tailored analyses.

                                The Library of Congress also recorded 73.4 million visits and 512 million
                                page-views of its primary source files on its Web site, and received 1.7
                                million on-site visitors.

                                Office of the Inspector General

                                The establishment of statutory federal Inspectors General began in 1978
                                to empower independent audit and investigative organizations to focus on
                                fraud, waste, and abuse within federal agencies. The Library of Congress
                                OIG was established in 1988 as a non-statutory office deriving its authority
                                from the Librarian of Congress. The OIG became statutory with the
                                passage of the Library of Congress Inspector General Act of 2005, with a
                                mandate to:

                                    •	    Conduct and supervise audits and investigations
                                	         relating to the Library of Congress,
                                    •	    Lead, coordinate, and recommend policies to 			
                                	         promote economy, efficiency, and effectiveness, and
                                    •	    Keep the Librarian of Congress and the Congress
                                	         fully and currently informed about problems and
                                	         deficiencies relating to the administration and operations
                                	         of the Library of Congress.

                                The OIG is a member of the Council of the Inspectors General on Integrity
                                and Efficiency, a unified council of all federal statutory Inspectors General,
                                and serves on the council’s audit and investigations committees.



Right: Floral element from a mural in the Librarian’s Ceremonial Office.

Photograph by Carol Highsmith

13 • Semiannual Report to the Congress
This Semiannual Report to the Congress is a part of the OIG’s statutory
reporting requirement and is organized to address the major functions of
the office including:

    •	   Significant audits, investigations, and other reviews 			
	        and activities of the OIG,
    •	   Review of legislation and regulations affecting the Library, and
    •	   Library decisions on OIG recommendations and the status
	        of implementation, along with any resulting monetary 			
	        benefits.

Audits are in-depth reviews that address the efficiency, effectiveness, and
economy of the Library’s programs, activities, and functions; provide
information to responsible parties to improve public accountability;
facilitate oversight and decision-making; and initiate corrective action as
needed.

Some audits address whether financial statements fairly present financial
positions, results of operations, and cash flows. They also assess whether an
entity has adequate internal control systems and complies with applicable
laws and regulations. The OIG also performs related types of reviews such
as inspections and attestations.

Investigations are typically based on alleged or suspected wrongdoing by
agency employees, contractors, or others responsible for handling federal
resources. Violations of Library regulations or fraud committed against
the Library can result in administrative sanctions and criminal or civil
prosecution. Contact information for the OIG Hotline is located on the
inside rear cover of this report.

Our staff is educated and certified in various disciplines. We are, collectively,
five certified public accountants (CPA), two attorneys, one certified internal
auditor (CIA), two certified information systems auditors (CISA), three
special agents, an investigator, and other highly qualified staff.

OIG reports are available at www.loc.gov/about/oig.




                                                   Semiannual Report to the Congress • 14
                                Audits, Surveys, and Reviews
                                Office of Contracts Management
                                Comparative Analysis of the Contracts
                                Office’s Workload and Staffing Levels

                                Special Report No. 2011‐SP‐105
                                January 2012

                                The Library of Congress’ Office of Contracts Management (OCM), a
                                component of the Office of Contracts and Grants Management, has a long
                                history of poor performance and high staff turnover. Over the years, we
                                have reported on the office’s lack of compliance with guidelines, inadequate
                                documentation, and numerous other issues. In the fall of 2010, a diverse
                                group of Library managers took over the office and began attempting to
                                repair the many problems we – and they – had identified.

                                In September 2010, OCM management requested that we assist them in
                                evaluating its staffing levels. In response, we designed a review to compare
                                recent workload and staffing data of the office with those of six other federal
                                agency procurement organizations.

                                The results of our review provided no significant indications that the
                                Library’s contract specialists managed a greater or more difficult workload
                                during fiscal years (FYs) 2009 and 2010 than their counterparts in other
                                agencies. For example, the Library had a favorable ratio of total full-time
                                equivalents to contract specialist positions – approximately 200 to one –
                                during FYs 2009 and 2010. Moreover, even though the Library had the
                                highest number of procurement actions among the agencies in FYs 2009
                                and 2010, over half of those actions were below the $100,000 simplified
                                acquisition threshold. Actions below that dollar threshold are generally less
                                difficult and time consuming for a contract specialist.

                                This report did not include any findings or recommendations requiring a
                                management response.




Right: Light fixture in the Librarian’s Ceremonial Office.

Photograph by Carol Highsmith

15 • Semiannual Report to the Congress
Library-Wide
Office of Contracts Management
Ongoing Weaknesses in the Acquisition Function
Require a Senior Management Solution

Audit Report No. 2011-SP-106
March 2012

To maintain public trust and fulfill public policy objectives, an effective
contracting function should provide timely acquisition of the right goods and
services while efficiently addressing customer needs and obtaining the best
value for taxpayers. The success of any public contracting system is rooted
in law and policies with appropriate internal controls, which if adhered
to through effective management and oversight, promote transparency,
accountability, competition, and ultimately protect resources from fraud,
waste, abuse, and mismanagement.

The Library has a well-documented history of problems in OCM, as we have
repeatedly reported over the last 10 years. Based on our ongoing concerns,
we engaged Jefferson Solutions (Jefferson), a consulting firm with expertise
in the federal acquisitions process, to perform an evaluation of the current
state of the Library’s OCM as a follow-up to our last report in 2008. The
following summary provides the results of Jefferson’s evaluation.

Management of the Contracting Function—Jefferson identified many
deficiencies and weaknesses in the OCM’s management, including problems
with infrastructure; organizational misalignment and lack of definition of
the OCM management structure; lack of continuity in executive leadership;
absence of a management tool to measure the contracting function’s
performance; staff lacking sufficient contracting knowledge and experience;
inadequate requirements for reviewing procurements under $100,000,
coupled with an ineffective Contracts Review Board for contracts over
$100,000 that fails to prevent or detect deficiencies in the contracting
process; and a lack of supervision and training that likely contribute to an
extremely high staff turnover rate and low morale.

Technical Issues—Jefferson identified numerous technical deficiencies at
critical steps in the contracting process, such as the lack of adequate planning;
failure to conduct market research; a gross lack of competition (of the 129
randomly selected contracts valued at $52 million, more than half were
awarded noncompetitively); poorly defined requirements; inadequate (and




                                                   Semiannual Report to the Congress • 16
                                in some cases missing) government cost estimates needed to analyze the
                                fairness and reasonableness of vendor quotes for goods and services; failure
                                to justify the use of risky labor-hour contracts; overuse of non-personal
                                services contracts, avoiding competition for readily available services;
                                mischaracterization of contract types resulting in the exclusion of clauses
                                that stipulate the government’s rights and privileges; pervasive incorrect use
                                and exercise of contract options; and an incorrectly configured contract
                                writing tool for inserting critical clauses into Library contracts.

                                Customers—Jefferson’s evaluation identified several problems relating
                                to the OCM’s interactions with customers in the areas of planning,
                                knowledge, responsibilities, and service, involving poor communication
                                and cooperation between the OCM and its customers (including instances
                                where customers were discouraged from communicating with the OCM);
                                customers lacking understanding of their roles and responsibilities related
                                to planning and executing contracts; Contracting Officer’s Representatives
                                (COR) inadequately trained to perform their duties, no accountability for
                                training and assigning COR responsibility; and a lack of current and useful
                                policies and procedures to guide OCM staff and customers.

                                Further, this review revealed that the Library does not track any performance
                                metrics related to effective procurement and administration of the OCM,
                                even though Library management knows about these long-standing
                                problems and is aware that program managers and staff receive poor quality
                                services from the OCM.

                                An area that stands out in particular is the OCM’s failure to consistently
                                obtain full and open competition or ascertain whether or not it is receiving
                                the best price. By not taking advantage of opportunities for competition,
                                the Library is likely paying more for services and supplies and/or limiting
                                access to offerors who may provide superior technical approaches and
                                solutions.

                                Despite bringing these and other problems to management’s attention
                                repeatedly over the past 10 years, we conclude that senior Library
                                management’s corrective efforts have been unsuccessful and that there
                                has been further deterioration in the function. The extent of deficiencies
                                and weaknesses found during this review is troubling considering Library
                                management asserted that it had corrected the vast majority of the
                                conditions identified in this and our 2008 report.


Right: Detail of ornamental woodwork in the Librarian’s Ceremonial Office.

Photograph by Carol Highsmith

 17 • Semiannual Report to the Congress
The government has established procurement regulations and best practices for
competing contracts, comparing costs, and determining price reasonableness
for the express purpose of maximizing the taxpayer’s purchasing dollar. These
guidelines, which focus partly on ensuring fair competition:

    •	   help reassure the public that taxpayer dollars are not wasted,
    •	   promote fairness and openness leading to public trust, and
    •	   prevent fraud, waste, and abuse because contractors know they 		
	        must perform at a high level or be replaced.

Healthy competition is the lifeblood of commerce: it increases the likelihood
of efficiencies and innovations, and reduces waste and inefficiencies. The
Library’s continued failure to comply with these guidelines, along with
ineffective management in the OCM and lack of accountability, expose the
Library to a high risk of costly inefficiencies and waste of funds.

In addition, with the multitude of issues and a flawed culture in the OCM,
the Library cannot claim that it is paying fair and reasonable prices for its
goods and services, or even that it is not making improper or inappropriate
purchases. The Library may very well be paying a high or unreasonable price
for the supplies and services it purchases.

In our view, if the Library is to be accountable for its annual expenditure of
$210 million in taxpayer dollars, executive leadership must fully commit to
developing a corrective action plan that specifically and thoroughly addresses
the more than 50 recommendations provided in the report, and make it a top
management priority to aggressively implement the plan.

Management concurred with all recommendations except four regarding the
Momentum Financial System.
                 Office of Strategic Initiatives
                 Information Technology Services
                 Inadequate Contract Oversight Exposed
                 The Library to Questionable Contractor Payments

                 Audit Report No. 2011‐PA‐109
                 March 2012

                 Information Technology Services (ITS) has overall administrative and
                 technical responsibility for managing the Library’s IT and telecommunication
                 programs, systems, and services. To fulfill this responsibility, ITS relies
                 heavily on contractors. On November 25, 2008, the Library’s OCM
                 awarded a contract valued at almost $40 million on behalf of ITS. Through
                 the contract, ITS and other Library service units receive a multitude of IT
                 services, including IT operations and maintenance services, hardware and
                 software support, and IT help desk support.

                 This report presented the results of our audit of ITS’ administrative and
                 management controls over the contract. Our objective was to determine
                 whether the controls were appropriately designed and were effectively
                 implemented by ITS to ensure cost-effective contractor services under
                 the contract. To accomplish this objective, we focused our work on the
                 controls ITS implemented for managing the contract’s first two task orders
                 for IT help desk services issued respectively in December 2008 and March
                 2010, valued at $15 million. Summaries of significant issues we identified
                 through our audit follow.

                 Erroneous Contractor Charges Approved by ITS—ITS improperly
                 approved payments for some IT help desk services. Those payments
                 involved contractor charges for overtime that was unauthorized and/or
                 charged at inflated rates, as well as charges to incorrect labor categories.
                 We identified 12,412.20 hours billed under the first help desk task order by
                 the contractor, approved for payment by ITS, and costing $771,163 which
                 we were unable to substantiate. We also identified a contractor invoice
                 for charges totaling $10,771 that was processed under the task order, but
                 not related to help desk services. These actions illustrate inadequacies in
                 the preventive and detective controls which were involved in ITS’ invoice
                 review process. We recommended that ITS design sufficiently detailed,
                 risk-based invoice processing procedures to ensure that complete, effective,
                 and documented reviews are performed prior to approving payments.

                 Inadequate Monitoring of Contractor’s Costs and Performance—ITS
                 did not adequately monitor the contractor’s billings during the first two
                 help desk task orders. The only oversight by ITS over contract billings


19 • Semiannual Report to the Congress
consisted of reviewing the contractor’s monthly progress reports and the
“burn rate” at which money was being spent. However, little or no review was
performed on the invoices that the contractor submitted, or on the methods
that the contractor was using to perform the task orders’ requirements. The
inadequate level of oversight exposed millions of dollars to an unnecessarily
high risk of waste and/or improper payments. We recommended that
ITS develop a written plan for monitoring the contractor’s billings and
performance.

Conflict of Interest—ITS took no action to avoid the appearance of a
conflict of interest which arose in the time leading up to and following the
contract award. We recommended that the OCM develop and implement
procedures for screening for potential conflicts of interest.

Management concurred with our recommendations.


Office of Strategic Initiatives
Information Technology Services

IT Security Assessment
Report Nos. 2011‐IT‐104 & 105
March 2012

The Library of Congress relies on its IT systems and information to achieve
its mission. Within ITS, the IT Security Group operates the Library’s
IT Security Program. Its mission is to provide IT security education and
awareness at all levels and to provide the Library with assurance that its sys-
tems and data are appropriately protected without impairing the Library’s
mission.

Under contract with the OIG, the consulting firm of CliftonLarsonAllen,
LLP (CLA) assessed the extent to which the Library’s IT security program
complies with best practices in the government and industry. Their objec-
tives were to 1) access the Library’s technical security controls by performing
coordinated network security tests, 2) determine the effectiveness of the Li-
brary’s security program in preventing and detecting unauthorized external
and internal access to IT assets, and 3) opine
on the effectiveness of the Library’s security
administration and logical access controls.




                                                 Above: Ornamental metalwork in the Librarian’s Ceremonial Office.
                                                 Photograph by Carol Highsmith

                                                  Semiannual Report to the Congress • 20
                                CLA conducted vulnerability assessments to find technical weaknesses in
                                the Library’s IT systems. The vulnerability assessments involved perform-
                                ing internal and external scanning of the Library’s IT security environment
                                using industry-standard tools which gather information on vulnerabilities
                                in the Library’s network.

                                Based on the results of these vulnerability assessments, CLA then used com-
                                mercially available tools and customized scripts to conduct internal and
                                external penetration testing. Penetration testing involves attempting to ex-
                                ploit the vulnerabilities identified during the scanning phase.

                                The results of CLA’s tests and its findings were conveyed in two reports:
                                one was issued to the Congressional Research Service and one presented to
                                Library and ITS management followed by detailed testing results. Library
                                managers analyzed the results and submitted corrective action plans for ad-
                                dressing CLA’s findings.


                                Library-Wide
                                Office of Strategic Initiatives
                                Follow-Up Review: Information
                                Technology Strategic Planning

                                Report No. 2011-IT-103
                                December 2011

                                Using the services of a consulting firm, we reported on the effectiveness of
                                the Library’s IT strategic plan in early 2009. The report’s overall conclusion
                                was that the Library’s IT strategic plan was not adequately integrated with
                                its overall strategic plan, and that essential planning components were
                                lacking. The report identified improvements needed in five key areas:
                                strategic planning, IT investment, enterprise architecture, organizational
                                structure, and customer service.

                                In December 2011, we performed an in-depth follow-up, intended to
                                assess the Library’s progress in addressing the issues presented in our 2009
                                report. Overall, we found that although the Library made progress towards
                                implementing our 2009 recommendations, we expected that it would have
                                made further progress by now. Summaries of our findings are as follows:

                                An Updated OSI Strategic Plan is Needed—The Office of Strategic
                                Initiatives (OSI) should update its strategic plan and ensure that it is in
                                line with the Library’s Fiscal Year 2011-2016 Strategic Plan. Additionally,
                                the Library should continue developing its enterprise architecture (EA),

Right: One of four circular murals in the Librarian’s Ceremonial Office.
Photograph by Carol Highsmith
21 • Semiannual Report to the Congress
with the goal of creating a transformational guide designed to move Library
organizations strategically and technologically forward in unison. We were
informed that since our report was published, OSI updated its strategic
plan.

Better Data for IT Investments is Needed—Library management must
improve the quality of data it maintains for the agency’s IT investments.
More accurate data on the current state of the Library’s technology will
enable effective management decision-making as the Library develops its
IT portfolio. The data improvement effort should ensure that all IT costs
(including computer security costs) are tracked and analyzed when required,
and taken into account as part of standard IT budgeting procedures.

The IT Function and OSI Need to be Organizationally Separate—
The organizational placement and structure of the IT function in the
Library is limiting effective strategic planning and proper governance for
IT. Accordingly, the IT function should be removed from OSI and an
Office of the Chief Information Officer should be established to manage
the Library’s IT function. Moreover, the Enterprise Architect and the EA
program should be organizationally moved to the Office of the Librarian,
and the Enterprise Architect should report directly to the Chief of Staff.
                                                    Increased Oversight of EA Development is Needed—
                                                      Management oversight of the early stages of EA
                                                        development has been too limited. Therefore, the
                                                          IT Steering Committee should re-energize its
                                                           relationship with the Architecture Review Board
                                                            (ARB) and increase its oversight of the ARB’s EA-
                                                            development activities. Additionally, all of the
                                                            Library’s EA costs, including development costs,
                                                           should be budgeted separately.

                                                     Customer Service Needs to be Strengthened—The
                                                  level of dissatisfaction throughout the Library with IT
                                              customer service can be reduced. To do so, the Library
                                       should 1) utilize Service Level Agreements to manage service unit
                                expectations, 2) require all service units to use a standard help desk system,
                                3) develop a set of metrics to measure ITS’ customer service performance
                                over time, and 4) conduct regular surveys to monitor satisfaction with IT
                                customer service.

                                In FY 2010, the Library obligated $107 million (37% of its discretionary
                                budget) for IT related expenditures, including services, hardware, software,
                                and maintenance. We believe Library management’s continued focus on
                                effective IT management will result in substantial long-term efficiencies.

                                Management concurred with 17 of our 21 recommendations, disagreed with
                                one, and stated that their response to three of our recommendations was
                                pending further review of the implementation of the information resources
                                management plan issued in December 2010.


                                Office of the Librarian
                                Survey of ccmMercury IT System
                                Survey Report No. 2011-IT-102
                                March 2012

                                The Office of the Librarian is responsible for managing ccmMercury, a
                                document and correspondence tracking software application. We initiated
                                an audit to assess controls and user access rights for this application.

                                Based on our audit survey, we concluded that further review was unnecessary.
                                We may revisit this area after Library management performs a certification
                                and accreditation (C&A) on the major upgrade to ccmEnterprise, that was
                                tentatively scheduled for March 2012. Summaries of the survey work we
                                performed follow.
Above: Librarian’s Ceremonial Office, detail of mural.
Photograph by Carol Highsmith

23 • Semiannual Report to the Congress
The Library’s Currently Installed Version of ccmMercury Cannot
Address Some Overdue POAMs—A Plan of Action and Milestones
(POAM) is the corrective action plan for addressing weaknesses identified
during the C&A process. In 2009, a C&A of ccmMercury resulted in
several POAMS, five of which remain unresolved. Three POAMS are due
to system limitations with the current version of the application and two
are due to inadequate management controls. This year’s planned upgrade
to ccmEnterprise will address three POAMs.

User Access Controls are Manually Intensive—The process of removing
a user’s access to ccmMercury is labor intensive and susceptible to human
error. Similarly to the management control POAMs, this weakness is not
dependent upon an upgrade, and adequately addressing it is management’s
responsibility. We identified one former employee with access to the system
for over a year after their separation.

Management concurred with the results of our audit survey.


Library-Wide

Survey of the Library’s Fire Suppression Systems

Survey Report No. 2011‐PA‐103
January 2012

The vast collections the American people have entrusted to the Library
deserve to be protected in the best and most efficient way possible. Because
great quantities of collection materials are flammable, the risk of a fire
starting and rapidly spreading at the Library is especially high. The Library
employs a variety of means by which it seeks to protect human life and
prevent or mitigate damage to the collections. Significant among these are
the Library’s fire alert and suppression systems. Such systems can broadly
be classified in two categories: smoke detectors and sprinkler systems. In
addition, the Library has installed clean agents that suppress fires through
chemical and physical systems to provide fire protection for its “Top
Treasures” and its Stradivarius and other valuable instruments.

We initiated this audit to evaluate the quality and management of the
Library’s fire suppression systems. Our survey work provided indications
that the internal controls for managing the Library’s fire suppression
systems were properly designed and functioning as intended. Therefore, we
concluded that additional audit work on this project would be unnecessary.
We made no recommendations in the report. Details of significant results
we obtained through our survey are provided in the following sections.



                                              Semiannual Report to the Congress • 24
Library’s Fire Suppression Systems Compare Favorably to Other
Cultural Institutions—The fire suppression systems installed in the three
Library buildings on Capitol Hill are comparable, with some exceptions,
to those used by similar, world-class cultural institutions we selected
for our survey (the Smithsonian Institution’s National Air and Space
Museum’s Steven F. Udvar-Hazy Center, National Archives and Records
Administration, New York Public Library, and the United Kingdom’s British
Library). After discussing the exceptions with officials from the Architect
of the Capitol (AOC), Office of Compliance (OOC), the Library’s Safety
Services Office, and Preservation Directorate, we concluded that they do not
materially affect overall fire protection, and that the AOC has implemented
adequate controls to compensate for any significant system shortcomings.

Office of Compliance Inspections Ensure AOC is Complying with
NFPA Standards—The OOC, an independent agency established through
the Congressional Accountability Act of 1995, is responsible for, among
other things, inspecting legislative branch facilities for compliance with
occupational safety and health standards at least once each Congress.
OOC staff includes a fire protection engineer to provide expertise for these
inspections. We met with OOC officials to discuss their inspections and
we reviewed the OOC’s Biennial Report on Occupational Safety and Health
Inspections, June 2009, conducted in the legislative branch for the 109th and
110th Congress. We concluded that through its program of comprehensive
inspections, the OOC currently provides assurance that AOC is examining,
testing, and maintaining the Library’s fire suppression systems according to
applicable fire codes and regulations including the National Fire Protection
Association (NFPA) standards. Additionally, we believe that the OOC has
in place an effective follow-up system for corrective action of deficiencies.

Library Services and Integrated Support Services submitted written
comments on our draft report. Management concurred with our findings.


Library of Congress
Fiscal Year 2011 Financial Statements
Audit Report No. 2011‐FN‐101
March 2012

We are pleased to report that for the 16th consecutive year, the Library
has received a “clean” opinion on its consolidated financial statements.
Under contract with our office, the independent accounting firm of
CliftonLarsonAllen, LLP audited the Library’s FY 2011 consolidated
financial statements. In the auditor’s opinion, the financial statements,
including the accompanying notes, present fairly, in all material respects,
the financial position of the Library and its net costs, changes in net
position, and budgetary resources for the year then ended, in conformity
with accounting principles generally accepted in the U.S.

The auditor’s consideration of internal controls over financial reporting
(including the safeguarding of assets) resulted, however, in the identification
of one significant deficiency: the Library’s internal controls were not
effectively designed to ensure the accurate and complete recording of
pledges. Weaknesses were noted with the proper identification of conditional
pledges, lack of sufficient documentary evidence to support the recording of
pledges, and lack of valuation of annual income payments from a pledge to
determine if the beneficial interest was material to the financial statements.

The auditors found no instances of noncompliance with laws and regulations
or other matters requiring reporting under generally accepted government
auditing standards.




                                              Left: Mural by Edward J. Holslag in the Librarian’s Ceremonial Office.
                                              Photograph by Carol Highsmith

                                               Semiannual Report to the Congress • 26
       Investigations
       During this reporting period, we opened 36 investigations and closed 47. We forwarded one investigation
       to Library management for administrative action. One investigation was forwarded to the Department
       of Justice for criminal prosecution and none are pending. Investigation case and Hotline activities are
       detailed below.

        Table 1: 	           Investigation Case Activity
                                                  Criminal/Civil                  Administrative   Total
        From Prior Reporting Period                       27                           19           46
        Opened                                            2                            34           36
        Closed                                            3                            44           47


        End of Period                                     26                            9           35



       Table 2: 	            Hotline Activity
                                                                                        Count
       Allegations received                                                                 25
       Referred to management                                                               7
       Opened as investigations                                                             7
       Opened as audit                                                                      0
       Closed with no action                                                                11




Right: Dome of the Librarian’s Ceremonial Office with stuccoed relief of a ring
of Grecian girls by Albert Weinert and a central mural by Edward S. Holslag.
Photograph by Carol Highsmith

27 • Semiannual Report to the Congress
        Significant Criminal and
         Administrative Investigations

             Reading Room Arrest

                The OIG’s routine monitoring of Internet logs revealed searches associ-
                 ated with child pornography, which we tracked to a public computer
                  in a Library reading room. OIG agents identified the computer user
                   as a patron who had been previously convicted of a sex offense, and
                    for whom a warrant was outstanding in Pennsylvania for a probation
                     violation related to his previous offense.

                       The OIG worked with the U.S. Capitol Police to arrest the indi-
                        vidual, who was later extradited to Pennsylvania. A subsequent
                        forensic investigation of the computer revealed many searches for
                         child pornography. In addition, several images that may depict
                         child pornography were found on the computer. The evidence
                         has been presented for possible prosecution.

                          Misuse of Government Computer and
                          Investigative Assistance to Outside Agency

                           During routine network monitoring, the Library’s Computer
                           Security Operations Center identified a computer persistently
                           infected with malicious code. Further analysis showed that the
                          computer was used to access and download large amounts of por-
                          nographic material. The computer was assigned to an employee
                          of another agency working at the Library of Congress. At the
                         request of the agency head, we conducted an administrative inves-
                        tigation which eventually led to the employee’s dismissal.

                      Abuse of Reading Room Workstations

                   Due to the significant number of OIG investigations concerning In-
                  ternet pornography, we initiated a project to bring together the results
                 of several investigations involving the more than 150 public worksta-
                tions in the Library’s reading rooms. We concluded that enforcement of
               the Library’s policy concerning the use of workstations varied consider-
              ably between reading rooms.




 Left: Detail of stuccoed relief by Albert Weinert in the dome of the Librarian’s Ceremonial Office.
Photograph by Carol Highsmith
We are concerned that in addition to creating an uncomfortable or harass-
ing atmosphere for others, pornographic Web sites frequently contain mal-
ware, viruses, and tracking programs which can affect the workstation, and/
or the Library’s network.

We recommended that the Library consider certain measures to help en-
force existing policy.

In response to our report, the Associate Librarian for Library Services—who
is coordinating efforts to respond to the issue—is benchmarking with other
research libraries, improving signage, and performing other measures to im-
prove awareness of, and compliance with, Library policy regarding use of
public workstations.

Missing Artifact

A Library employee reported a valuable scroll missing from a secure cage
in the Asian Division. While conducting an extensive search with Library
staff, we became aware of many valuable items in the Division stored with
inadequate security. We immediately coordinated with the Library’s Office
of Security and Emergency Preparedness to move the items to secure loca-
tions. We also identified poor internal control practices and provided guid-
ance to management for improving safeguards for the collections.

Later, the scroll was discovered in an area that had previously been searched.
This suggested to us that it was placed there after our search. The incident
was referred to the OIG’s Audits Division, which is now conducting a more
thorough review of Asian Division collections controls to be reported in our
next Semiannual Report to Congress.

Denial of Service Attacks

The Library of Congress was one of the agencies targeted during the Janu-
ary 9, 2012 denial of service attacks launched in protest of the pending
PROTECT IP Act and Stop Online Piracy Act legislation and the arrest of
“Kim Dotcom,” an individual accused in a federal criminal case of sharing
copyrighted files. While the Library’s outward-facing Internet sites were
slowed down, no actual damage or security breaches were reported. OIG
agents coordinated in providing the Library’s security logs to the FBI to as-
sist with their identification of the suspected attackers and potential links to
global cyber-attacks.




                                                  Semiannual Report to the Congress • 30
                 Inspector General Threatened

                 The Inspector General received a package typical of those sent by various
                 “Sovereign Citizen” groups, who often harass and threaten public officials
                 using various legal instruments. This package was reviewed and forwarded
                 to the FBI’s domestic terrorism section for further threat analysis and
                 intelligence purposes.

                 Contract Award Complaint

                 In May 2011, the Office of Contracts Management (OCM) awarded to
                 a vendor a fixed-price contract valued at $1,530,480. After the contract
                 was awarded, one of the bidders inquired about the status of its bid. As a
                 result of this inquiry, the OCM found that in addition to the four bids it
                 reviewed during the evaluation process, the complainant’s and one other
                 bid proposal that had been timely submitted had not been included in the
                 evaluation process.

                 To remedy the situation, the Library re-issued the solicitation and asked
                 the six vendors to resubmit their proposals. The six bids it subsequently
                 received were evaluated and the contract was again awarded to the same
                 vendor.

                 In September 2011, we received a complaint against the contract award.
                 The complaint alleged that the OCM failed to evaluate a bid proposal and
                 respond to the contractor in a timely manner. We investigated the com-
                 plaint partly because of our ongoing concerns with OCM management.
                 We concluded that:

                 	       • the OCM did not violate procurement laws,
                 	       • there was no evidence of intentional misconduct by the OCM, 	
                 	         and
                 	       • all bids were properly evaluated in the second solicitation.

                 Although we did not substantiate the allegations, we found weaknesses in
                 the bid solicitation and collection process which expose the Library to the
                 possibility of legitimate bid protests. We recommended that the OCM
                 establish stronger controls to ensure all bids are received, accounted for,
                 and evaluated prior to award in order to ensure the Library always receives
                 the best value for its contracting dollars and is shielded from bid protests.




31 • Semiannual Report to the Congress
Misuse of Computer

We initiated an investigation after receiving an allegation that a Library
employee used their computer to log on to a U. S. Copyright Office limited-
access database to change the status of their personal copyright application
from unpaid to paid. Our investigation confirmed that the employee did,
in fact, change the payment status. The matter was referred to management
and the employee served a 5-day suspension.



Follow-up on Investigative Issues
from Prior Semiannual Reports

Pirated NLS Talking Books

As previously reported, we investigated the Internet sales of several talking
books which we believed were copies, pirated overseas, of books produced
by the Library’s National Library Service for the Blind and Physically
Handicapped (NLS). We determined that there were no contractual
agreements between the NLS and foreign libraries enabling them to receive
NLS talking books, and no apparent authority to distribute the books to
parties other than U.S. citizens living abroad. The Library’s General Counsel
concurred with this finding and the acting
director of NLS suspended the loan of
materials to foreign libraries.




                                                Above: Detail of a stuccoed owl, the symbol of wisdom,
                                                from the dome of the Librarian’s Ceremonial Office.
                                                Photograph by Carol Highsmith

                                                Semiannual Report to the Congress • 32
                 Other Activities
                 ILS Acquisition Workflow and
                 Related System of Internal Control
                 October 2011

                 We reviewed and analyzed the work flows and related system of internal
                 control of Library Services’ (LS) Integrated Library System Voyager acquisi-
                 tion process. Our objectives included identifying existing internal control
                 weaknesses that should be addressed by LS for the Library’s Internal Con-
                 trol Program, providing essential documentation of the acquisition process
                 for the Library’s independent public accountants, and establishing a formal
                 document for use by LS in future system analyses.

                 As part of this project, we reviewed the transaction flows of firm orders, ap-
                 proval plans, subscription plans, bibliographic services, and credit memos.
                 We constructed detailed flowcharts for each process flow and explained
                 each step within the charts with a supplemental narrative. While we made
                 no recommendations, we did assist LS in targeting areas to strengthen.

                 Letter to the Library’s General
                 Counsel on OIG Investigations,
                 Procedures, and Responsibilities
                 November 2011

                 Based on an inquiry from the Library’s General Counsel about OIG access
                 to Library employee email, we communicated the duties and rights of the
                 OIG, as well as the practices we have put into place for initiating and car-
                 rying out investigations. We outlined our responsibility under the Library
                 of Congress Inspector General Act of 2005 (2 U.S.C. §185) to conduct and
                 supervise independent investigations relating to the Library of Congress.
                 We also identified specific provisions of Library of Congress regulations
                 relating to investigations concerning possible violations of laws, rules, or
                 regulations, mismanagement, gross waste of funds, fraud, abuse of author-
                 ity, or a substantial and specific danger to public health and safety.

                 In responding to the General Counsel’s request, we explained internal OIG
                 policies regarding the initiation of investigations and collection of employ-
                 ee email and the criteria used to initially evaluate complaints, allegations, or
                 other information suggesting violations of laws or regulations. We further
                 explained the responsibility of all Library officers, managers, and employees
                 to cooperate with OIG investigations by furnishing all information that
                 may be needed in the course of an investigation and protections and penal-
                 ties relating to Library employees in relation to OIG investigations.


                                                                                                Right: Detail of frieze and mural in
                                                                                                the Librarian’s Ceremonial Office.
33 • Semiannual Report to the Congress                                                          Photograph by Carol Highsmith
Office of Support Operations Lost Funds Review
March 2012

We recently engaged a consulting firm to conduct an in-depth follow-up of
our 2008 report on the OCM. During this project, the firm found indications
that funds appropriated for use by the Library expired and went unused at
the end of FY 2011 primarily because the OCM failed to execute requisitions
that had been timely entered by the service units. We followed up on these
findings.

To minimize funds lost due to expiration, the Library has established a process
that reallocates unobligated funds, including amounts the OCM cannot
award before year-end, to purchasing pre-planned collection materials,
improving public areas, and addressing other service unit needs. This process
successfully applied more than $2.275 million in available funds during
September 2011.

Despite this process, the Library lost approximately $3 million in FY 2011
funds through expiration. Our objective was to determine what, if any,
portion of this $3 million was directly due to delay or inaction by the OCM.

We concluded that more than $1 million in FY 2011 funds expired due to
various coordination and communication problems related to the OCM, and
in some cases, the Library’s Facilities Design and Construction Office.

We believe that with better planning and communication from the OCM,
the Library could have redirected these funds instead of losing them. We
reemphasized the recommendations regarding communications and
organization made in our March 2012 report, Ongoing Weaknesses in the
Acquisition Function Require a Senior Management Solution (Special Report
No. 2011-SP-106).
Review of Legislation and Regulations

  Table 3:                      Review of Library of Congress Regulations (LCRs)
           LCR Reviewed                                          Comments by the Office of The Inspector General
                                            We suggested that exchange materials be included in this LCR. We also suggested including
  LCR 321-2
                                            Interpretive Programs Office in the list of offices that may be involved in facilitating transportation
  Transportation of Materials to and
                                            of materials. Further, we suggested mentioning the standard form required for mailing and the dual
  from the Library of Congress
                                            signature requirement.
                                            We recommended clarification on what ‘former employee’ means, e.g. individuals that were employees
                                            during an incident giving rise to adverse action. We suggested that a minimum notification time-
  LCR 1525	
                                            frame be stated, e.g., within 5 calendar days of receipt of an adverse action. We also suggested adding
  Indemnification of Library of
                                            ‘settlement proposal’ to the phrase “…; a copy of the verdict, judgment, or other monetary award...”
  Congress Employees
                                            We recommend adding language for circumstances when the employee is incapacitated or deceased,
                                            e.g., action to be executed by employee’s legal representative.
  LCR 1916-2		                              We suggested adding that recipient units are required to follow guidance from the Office Systems
  Customs Clearances and                    Services division (OSS), including providing the sender with instructions for addressing the package
  Government Bills of Lading                and notifying OSS as to when the package is expected to arrive.




Above: Detail of a stuccoed book relief from the dome above the Librarian’s Ceremonial Office.
Photograph by Carol Highsmith

35 • Semiannual Report to the Congress
Unimplemented Recommendations
Table 4A: 	    Significant Recommendations from Previous Semiannual
               Reports for Which Corrective Action Has Not Been Completed
        Subject           Report No.           Office           Rec. No.     Summary and Status of Recommendation
                          Issue Date
Office of the Librarian
                                                                             System managers for Raiser’s Edge should regularly
                                                                             review the system’s transaction logs for suspect data
Raiser’s Edge              2006-IT-302      Development                      events—Purchase of a stand alone product for log re-
                                                                   III
Software Program          December 2007        Office                        views was cost prohibitive. The Library is exploring
                                                                             Arcsite, a product for continuous monitoring. The
                                                                             target date for a decision is June 2012.
                                                                             Separate the IT function from the Office of Strategic
                                                                             Initiatives and have the Chief Information Officer
Information Technology    2008-PA-105         Office of
                                                                  3.A        report directly to the Librarian or Chief Operating
Strategic Planning        March 2009        the Librarian
                                                                             Officer—There has been no resolution on this recom-
                                                                             mendation.
                                                                             Create a policy using Internal Revenue Service rules
                                                                             to properly classify workers as independent contrac-
                                                                             tors or employees and require service units to submit
                                                                             documentation on the test to the Office of Contracts
                           2010-PA-105     Office of the
Multi-Sector Workforce                                            III.1      Management (OCM) for nonpersonal contract servic-
                           March 2011     General Counsel
                                                                             es—The Office of Support Operations (OSO) expects
                                                                             to deliver recommended revisions to LCR 2111 to the
                                                                             Office of the General Counsel (OGC) by April 2012
                                                                             to initiate the LCR review process.
                                                                             OCM and the Office of the Chief Financial Officer
                                                                             (OCFO) should update directives to officially reflect
                           2011-SP-101    Office of Contracts                the current spending limit for micro purchases of
Improper Payments II                                              I.2
                            May 2011        Management                       $3,000—OCFO and OCM are in the process of up-
                                                                             dating Directive 06-01 and anticipate completion by
                                                                             September 2012.
Office of Support Operations (OSO)
                                                                             The Library should determine if centralizing telework-
                                                                             ing policy-making authority in a Telework Coordina-
                          2010-PA-102     Office of Support                  tor would add value to the program—The Operations
Telework Program                                                  I.1
                           June 2011         Operations                      Committee (OC) is collecting information to make
                                                                             recommendations to the Executive Committee (EC)
                                                                             in FY12.
                                                                             The Library should collect data on, and evaluate the
                                                                             costs and benefits of, teleworking to determine wheth-
                          2010-PA-102     Office of Support                  er it provides a cost-effective means to perform specif-
Telework Program                                                  I.3
                           June 2011         Operations                      ic work requirements—The OC is collecting data for
                                                                             presentation to the EC by April 2012 for evaluating
                                                                             the cost/benefit of telework.
                                                                             The Library should develop a telework health and
                                                                             safety checklist and incorporate it into its telework
                          2010-PA-102     Office of Support
Telework Program                                                  I.4        agreement forms—It is anticipated that the OC will
                           June 2011         Operations
                                                                             complete its review of the proposed health and safety
                                                                             checklist in June 2012.
                                                                             The Library should develop an interactive telework
                                                                             training program and require teleworkers and their
                          2010-PA-102     Office of Support                  managers to successfully complete it before beginning
Telework Program                                                  I.5
                           June 2011         Operations                      telework—The Library will develop and deploy two
                                                                             online telework training courses, one for supervisors
                                                                             in FY12, and the other for staff in early FY13.


                                                                           Semiannual Report to the Congress • 36
Unimplemented Recommendations
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
       Subject          Report No.          Office           Rec. No.   Summary and Status of Recommendation
                        Issue Date
Office of Support Operations (OSO) Continued
                                                                        The Library should revise LCR 2014-8 to address the
                                                                        permissibility of accessing sensitive unclassified and
                        2010-PA-102    Office of Support                “For Official Use Only” data at offsite locations—The
Telework Program                                               I.6
                         June 2011        Operations                    OC will review this regulation by June 2012 and other
                                                                        regulations delineating IT security policies to deter-
                                                                        mine if revisions are required.
                                                                        The Library should review positions to determine if
                                                                        they are prone to telework and do not create an addi-
                        2010-PA-102    Office of Support
Telework Program                                               II.1     tional burden on other areas—The EC will be briefed
                         June 2011        Operations
                                                                        by April 2012 on telework survey results that assess
                                                                        telework benefits, costs, and effects.
                                                                        The Library should institute policies requiring the
                                                                        availability of teleworkers by email, telephone, and in
                                                                        person when needed including the use of remote call
                        2010-PA-102    Office of Support                coverage for positions involving frequent telephone
Telework Program                                               II.2
                         June 2011        Operations                    use—Requirements for teleworker availability will be
                                                                        made a part of the telework training program under
                                                                        design in Human Resources Services (HRS). Training
                                                                        implementation is targeted for early FY13.
                                                                        The Library should require employees who are ex-
                                                                        pected to telework during a Continuity of Opera-
                                                                        tions (COOP) event to have adequate training, infra-
                        2010-PA-102    Office of Support                structure support, and practice—Target date for the
Telework Program                                              IV.1.a
                         June 2011        Operations                    COOP roll-out is September 2012. As part of the
                                                                        roll-out, the Office of Security and Emergency Pre-
                                                                        paredness (OSEP) envisions a series of briefings to ad-
                                                                        dress requirements for all COOP telework staff.
                                                                        The Library should have a telework agreement in place
                                                                        that provides for a COOP event—To ensure staff
                        2010-PA-102    Office of Support                readiness, service units will be reminded to ensure
Telework Program                                              IV.1.b
                         June 2011        Operations                    their COOP staff have telework agreements in place.
                                                                        The target date for the COOP roll-out is September
                                                                        2012.
                                                                        The Library should incorporate teleworking scenarios
                                                                        in the Library’s COOP exercises—COOP telework
                        2010-PA-102    Office of Support
Telework Program                                               IV.2     training scenarios will be included in the Library-
                         June 2011        Operations
                                                                        wide roll-out as well as service unit-specific COOP
                                                                        planning by September 2012.
Office of Contracts Management (OCM)
                                                                        OCM should assist the Office of Business Enterpris-
                                                                        es (OBE) by providing alternative ordering methods
                                                                        such as blanket purchase agreements that will meet
                                                                        their purchase turnaround requirements, or grant
                        2011-SP-101    Office of Contracts
Improper Payments II                                           I.1      OBE the authority to make purchase card transac-
                         May 2011        Management
                                                                        tions beyond the micro-purchase limit—The OCM
                                                                        is working with OBE to set up the necessary controls
                                                                        to implement blanket purchase agreements by April
                                                                        2012.




37 • Semiannual Report to the Congress
Table 4A: 	     Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
        Subject          Report No.           Office           Rec. No.    Summary and Status of Recommendation
                         Issue Date
                                                                           HRS and OCM should enhance information they
                                                                           collect and maintain on employees and contractors
                                                                           and develop internal control procedures to identify
                                                                           situations where a conflict of interest may exist—
                          2011-SP-101    Office of Contracts
Improper Payments II                                              II       HRS will test National Finance Center (NFC) soft-
                           May 2011        Management
                                                                           ware to track and identify conflicts of interest and
                                                                           anticipates implementation by May 2012. HRS and
                                                                           OCM will continue to follow interim procedures to
                                                                           identify potential conflicts of interest until then.
Human Resources Services (HRS)
                                                                           Prepare performance appraisals which compare em-
                                                                           ployees’ actual accomplishments with corresponding
                          2009-PA-101       Workforce                      performance requirements—The Director of Work-
Recruiting and Hiring                                            II.1
                         November 2009     Acquisitions                    force Acquisitions has formed a committee to devel-
                                                                           op improved plans with a target date for completion
                                                                           in April 2012.
                                                                           Develop and implement a structured procedure that
                                                                           provides a uniform method for making in/outsource
                                                                           personnel determinations. This procedure should
                                              Human
                          2010-PA-105                                      provide the means to identify which activities are
Multi-Sector Workforce                       Resources             I
                          March 2011                                       inherently governmental and which service provider
                                              Services                     represents the best value to the Library—OSO is de-
                                                                           veloping recommendations to submit to the EC by
                                                                           September 2012 for insourcing/outsourcing work.
                                                                           Establish a system to collect and maintain data repre-
                                                                           senting the total composition of the Library’s direct
                                                                           hire and contractor workforce. Ensure that the data
                                              Human
                          2010-PA-105                                      maintained in the system is current, complete, and
Multi-Sector Workforce                       Resources            II
                          March 2011                                       accurate at all times—HRS anticipated testing of the
                                              Services
                                                                           NFC’s “Person Model” within EmpowHR to track
                                                                           employee and non-employee information in March
                                                                           2012, and implementation by May 2012.
                                                                           Require managers to complete on-line refresher train-
                                                                           ing annually on material in the Supervisors Hand-
                                                                           book, similar to the annual training required of all
                                                                           Library employees on IT security awareness—The
                                                                           OC approved the recommendations of the Library’s
                                              Human
Employment Incentives     2010-PA-103                                      Human Capital Management Flexibilities Working
                                             Resources           I.1.b
and Flexibilities           July 2010                                      Group (HCMFWG) to enhance first-level supervision
                                              Services
                                                                           at the Library. The Human Capital Planning Board
                                                                           will implement these recommendations in FY12 and
                                                                           FY13. The Library will continue quarterly Supervisor
                                                                           Forums to update supervisors on new and changing
                                                                           information, ideas, and procedures.
Integrated Support Services (ISS)
                                                                           Develop and implement a training program on federal
                                                                           records management for Library staff— In February
                                                                           2012, an online federal records management train-
Retention of Federal      2009-PA-104     Office Systems
                                                                  I.c      ing program was tested and completed. This training
Records                   March 2010         Services
                                                                           program will be introduced to senior management and
                                                                           unions in March 2012 with an anticipated Library-
                                                                           wide roll out in the third quarter 2012.


                                                                         Semiannual Report to the Congress • 38
Unimplemented Recommendations
Table 4A: 	      Significant Recommendations from Previous Semiannual
                 Reports for Which Corrective Action Has Not Been Completed
         Subject           Report No.           Office          Rec. No.   Summary and Status of Recommendation
                           Issue Date
 Integrated Support Services (ISS) Continued
                                                                           Initiate a program to provide active oversight of ser-
                                                                           vice units’ record keeping practices. Ensure that the
                                                                           oversight program’s design provides adequate assur-
 Retention of Federal      2009-PA-104       Office Systems
                                                                  I.b      ance that service units’ practices comply with the Fed-
 Records                   March 2010            Service
                                                                           eral Records Act and National Archives and Records
                                                                           Administration regulations—Program developed with
                                                                           implementation scheduled for third quarter 2012.
                                                                           Perform a cost/benefit analysis to determine whether
                                                                           the Library should implement an electronic record-
                                                                           keeping system—This project is in initial stages,
 Retention of Federal      2009-PA-104       Office Systems                including determination of the service unit require-
                                                                   II
 Records                   March 2010           Services                   ments. ISS is looking at available electronic records
                                                                           management systems and defining requirements.
                                                                           The cost/benefit analysis is targeted for completion
                                                                           in September 2012.
 Office of Opportunity, Inclusiveness, and Compliance (OIC)
                                                Office of                  Evaluate and revise LCR 2010-3.1—Proposed revi-
 Equal Employment
                           2001-PA-104       Opportunity,                  sions were submitted to the Library’s LCR working
 Opportunity                                                        I
                           February 2003   Inclusiveness, and              group and Library unions. The target for implemen-
 Complaints Office
                                              Compliance                   tation is September 2012.
                                                                           Revise LCR 2020-7 to allow complainants to use
                                               Office of
                                                                           dispute resolution during the formal complaint
 Dispute Resolution         2002-PA-104     Opportunity,
                                                                   III     process—Proposed revisions submitted to the Library’s
 Center                    September 2003 Inclusiveness, and
                                                                           LCR Working Group for review and comment. Target
                                             Compliance
                                                                           date for implementation is September 2012.
                                                                           OIC in collaboration with the HCMFWG should:
 Follow-Up Review of the                        Office of                  Implement our 2008 recommendation to track perfor-
 Office of Opportunity,     2011-PA-106      Opportunity,                  mance evaluations to determine whether there is consis-
                                                                  II.1
 Inclusiveness, and          June 2011     Inclusiveness, and              tency among groups—The EC will reconsider this based
 Compliance                                   Compliance                   on the recommendations of the newly hired Director of
                                                                           OIC and have a target date of September 2012.
                                                                           OIC in collaboration with the Library’s HCMFWG
                                                                           should: Complete the barrier identification and elimi-
                                                                           nation process initiated with the Multi-Year Affirma-
 Follow-Up Review of the                        Office of
                                                                           tive Employment Program Plan (MYAEPP) by assess-
 Office of Opportunity,     2011-PA-106      Opportunity,
                                                                 II.2.b    ing the success of the plan—OIC and the HCMFWG
 Inclusiveness, and          June 2011     Inclusiveness, and
                                                                           devised and implemented an action plan for conduct-
 Compliance                                   Compliance
                                                                           ing barrier identification and its elimination. They
                                                                           will assess its progress in the relevant areas. The target
                                                                           date for implementation is March 2013.
 Follow-Up Review of the                        Office of                  OIC should make the Library's "No Fear" data avail-
 Office of Opportunity,     2011-PA-106      Opportunity,                  able to staff—The EC will reconsider this based on
                                                                   V
 Inclusiveness, and          June 2011     Inclusiveness, and              the recommendations of the newly hired Director of
 Compliance                                   Compliance                   OIC; target date is September 2012.
 Library Services (LS)
                                                                           Establish criteria for specifically defining Top Trea-
                                                                           sure collection items and a clear process to nominate
 Top Treasures Security
                           2008-PA-103                                     or transfer collection items to the category—In April
 and Preservation                           Library Services       I.a
                           January 2009                                    2011, the draft LCR was revised, updated, and final-
 Controls                                                                  ized. It is now under review by the LCR Working
                                                                           Group with a target completion date of October 2012.


39 • Semiannual Report to the Congress
Table 4A: 	    Significant Recommendations from Previous Semiannual
               Reports for Which Corrective Action Has Not Been Completed
       Subject          Report No.          Office          Rec. No.    Summary and Status of Recommendation
                        Issue Date
                                                                        The National Library Service for the Blind and Physi-
                                                                        cally Handicapped (NLS) should apply Statement of
                                                                        Federal Financial Accounting Standards Number 4,
                        2011-PA-104
NLS Requirements                         Library Services      IV       Managerial Cost Accounting Concepts and Standards
                        October 2011
                                                                        for the Federal Government to reports it develops re-
                                                                        garding the Talking Book Program’s cost—NLS has
                                                                        not started on this recommendation.
                                                                        NLS should explore the cost/benefits of testing Digital
                                                                        Talking Book Machine (DTBM) inventories as part of
                                                                        its periodic site visits to network regional libraries to
                                                                        ensure that the machines provided to the agencies are
                        2011-PA-104
NLS Requirements                         Library Services       V       being appropriately accounted for—NLS developed a
                        October 2011
                                                                        methodology for this testing and plans to explore the
                                                                        cost/benefits of testing DTBM inventories as part of its
                                                                        periodic site visits to network regional libraries in the
                                                                        second half of FY12.
                                                                        Develop and implement a uniform program par-
                                                                        ticipant application that requires completion of all
                                                                        eligibility information, including the applicant’s IRS-
                         2010-PA-106
Surplus Books Program                    Library Services     I.a.2     issued tax identification number—This requirement
                        September 2011
                                                                        will be integrated into the automated system to be
                                                                        developed. Detailed system requirements to be com-
                                                                        pleted by fourth quarter FY12.
                                                                        Create and maintain a perpetual inventory listing of
                                                                        all Congressional franking labels on hand with man-
                                                                        agement periodically physically inventorying the la-
                         2010-PA-106
Surplus Books Program                    Library Services     I.b.2     bels—Inventory requirements have been completed
                        September 2011
                                                                        and will be integrated into the developing automated
                                                                        system. The detailed system requirements are sched-
                                                                        uled for completion by fourth quarter FY12.
                                                                        Update LCR 1816 to include designing a serialized
                                                                        document that is counterfeit resistant, reassigning the
                                                                        responsible office to ensure oversight, documenting
                                                                        accountability, and implementing procedures to more
                                                                        appropriately account for and retire used passes. Also
                         2010-PA-106
Surplus Books Program                    Library Services     I.c.1     revise the LCR to implement a pass designed for spe-
                        September 2011
                                                                        cific Surplus Books Program (SBP) use—LCR 1816
                                                                        is under review for updating due to the police merger.
                                                                        OGC is working on this and several other regulations
                                                                        affected by the merger with a target for completion in
                                                                        first quarter 2013.
                                                                        SBP management should implement the use of a soft-
                                                                        ware application to collect and analyze program oper-
                                                                        ating data—SBP management presented ITS with a
                         2010-PA-106                                    high-level requirements document to be followed by a
Surplus Books Program                    Library Services     II.a.1
                        September 2011                                  detailed requirements document. The resulting auto-
                                                                        mation project is in the ITS work plan for the coming
                                                                        months. The target date for a detailed requirements
                                                                        document is fourth quarter FY12.




                                                                       Semiannual Report to the Congress • 40
Unimplemented Recommendations
Table 4A: 	          Significant Recommendations from Previous Semiannual
                     Reports for Which Corrective Action Has Not Been Completed
           Subject                  Report No.                 Office              Rec. No.          Summary and Status of Recommendation
                                    Issue Date
                                                                                                     LS management should collect the required data to
                                                                                                     conduct an analysis to determine whether the Library
                                    2010-PA-106                                                      derives tangible benefits from processing other agen-
Surplus Books Program                                     Library Services            II.c.1
                                   September 2011                                                    cies’ surplus material transfers—No action will be
                                                                                                     taken on this recommendation until the SBP moves
                                                                                                     back to its permanent space in FY13.
Library Services (LS) Continued
                                                                                                     Design and implement an internal control system that
                                                                                                     will ensure that valid and verifiable data will be col-
Performance-Based                    2010-PA-107                                                     lected and used to measure program performance—
                                                          Library Services             II.2
Budgeting                            January 2011                                                    Work continues on a list of definitions that will be
                                                                                                     used for reporting with all controls over data com-
                                                                                                     pleted in 2013.
                                                                                                     Reevaluate background investigation procedures
                                                                                                     for Rare Book and Special Collections Division
                                                                                                     (RBSCD)’s management and periodically update
                                                                                                     background investigations—OSEP will initiate peri-
Rare Book and Special                2008-PA-101
                                                          Library Services              I.f          odic updates of background investigations when the
Collections Security                 March 2009
                                                                                                     Office of Personnel Management issues implement-
                                                                                                     ing guidance for recent changes to 5 Code of Federal
                                                                                                     Regulations Part 731, Regulations for Conducting Pe-
                                                                                                     riodic Reinvestigations for Public Trust Positions.
Office of Strategic Initiatives (OSI)
                                                                                                     Produce a guide to ensure that the Library moves
                                                                                                     forward as a total institution with one voice—Pro-
Information Technology              2008-PA-105          Office of Strategic                         duction of a transformation guide that moves the
                                                                                       1.D
Strategic Planning                  March 2009               Initiatives                             Library forward with one voice is expected when the
                                                                                                     Enterprise Architecture is further developed. Devel-
                                                                                                     opment will continue through FY12.
                                                                                                     Implement a commercial “off-the-shelf ” (COTS) en-
                                                                                                     terprise help desk system that includes metrics—The
                                                                                                     Library is planning to replace its current IT help desk
                                                            Information
Information Technology              2008-PA-105                                                      system with a COTS system with enhanced metrics.
                                                            Technology                 5.D
Strategic Planning                  March 2009                                                       Service units will have the choice to participate in
                                                              Services                               the COTS system or to interface their existing sys-
                                                                                                     tems. Target date for completion of software testing
                                                                                                     is April 2012.
                                                                                                     Negotiate a new help desk contract to meet the dif-
                                                            Information                              ferent service level requirements of all service units to
Information Technology              2008-PA-105
                                                            Technology                 5.E           eliminate duplicative services—ITS and OCM plan
Strategic Planning                  March 2009
                                                              Services                               to solicit a new help desk contract during FY12 and
                                                                                                     not exercise option year four of the current contract.
                                                                                                     Develop dynamic, evolving metrics to measure per-
                                                                                                     formance—Service Level Agreements and end-user
                                                            Information                              surveys will be developed to provide the means to
Information Technology              2008-PA-105
                                                            Technology                 5.F           measure ITS’ customer service, and used to deter-
Strategic Planning                  March 2009
                                                              Services                               mine ITS’ customer service performance in specific
                                                                                                     areas. ITS management is developing a plan with
                                                                                                     target dates yet to be established.


Right: A selection from the Thomas Jefferson Library, on exhibit in the Thomas Jefferson Building.

Photograph by Carol Highsmith

 41 • Semiannual Report to the Congress
Implemented Recommendations
Table 4B: 	      Significant Recommendations from Previous Semiannual Reports
		               for Which Corrective Action Was Completed During This Period
        Subject           Report No.          Office            Rec. No.     Summary of Recommendation and Action
                          Issue Date
Office of the Librarian
                                                                           The Development Office should ensure that the Raiser’s
Raiser’s Edge Software     2006-IT-302     Development                     Edge system undergoes certification and accreditation
                                                                    II
Program                   December 2007       Office                       (C&A)—Raiser’s Edge C&A was completed in October
                                                                           2011.
                                                                           Promptly identify nonpersonal services contracts where
                                                                           employer/employee relationships have been established be-
                          2010-PA-105     Office of Contracts              tween the Library and contractors and consult with OGC
Multi-Sector Workforce                                            III.2
                          March 2011        Management                     about terminating those contracts—OGC confirmed a
                                                                           service unit review of nonpersonal service contracts result-
                                                                           ing in the termination of one contract.
Office of Support Operations (OSO)
                                                                           The Library should ensure all telework agreements are
                                                                           complete, accurate, and adequately describe the work and
                          2010-PA-102     Office of Support
Telework Program                                                   I.2     how it will be measured—HRS has implemented this rec-
                           June 2011        Operations
                                                                           ommendation including a guidance memorandum issued
                                                                           to service units in March 2012.
Human Resources Services (HRS)
                                                                           Develop a survey modeled after the Office of Personnel
                                                                           Management’s Management Satisfaction Survey to deter-
                           2009-PA-101       Workforce                     mine managers’ satisfaction with the hiring process and
Recruiting and Hiring                                             I.c.2
                          November 2009     Acquisitions                   identify strategies for making process improvements—
                                                                           HRS implemented a management satisfaction survey
                                                                           during the first quarter FY12.
Follow-Up Review of the                                                    HRS should revise its automated exit interview question-
                                              Human
Office of Opportunity,    2011-PA-106                                      naire to include asking the former employee to voluntari-
                                             Resources             VI
Inclusiveness, and         June 2011                                       ly identify his or her racial background—HRS revised the
                                              Services
Compliance                                                                 automated exit interview questionnaire as recommended.
                                                                           Require managers to attend quarterly HRS forums and
                                              Human
Employment Incentives     2010-PA-103                                      supervisors to attend at least once per year—The OC has
                                             Resources            I.1.a
and Flexibilities           July 2010                                      approved and implemented this recommendation via the
                                              Services
                                                                           Human Capital Planning Board (HCPB).
                                                                           Assign a point-person responsible for ensuring that mem-
                                              Human
Employment Incentives     2010-PA-103                                      bers of the HCMFWG pass the group’s information on
                                             Resources             I.2
and Flexibilities           July 2010                                      to their respective managers—The HCPB has taken on
                                              Services                     this role effective March 2012.
                                                                           HRS should ensure appropriate controls are in place to
                                                                           protect personally identifiable information (PII), and that
Multi-Year Affirmative                        Human
                          2011-PA-106                                      social security numbers are excluded from data provided
Action Employment                            Resources             III
                          August 2011                                      to service units outside of HRS—HRS has reinforced con-
Program Plan                                  Services
                                                                           trols to ensure that data provided outside of HRS does not
                                                                           contain PII.
Office of Opportunity, Inclusiveness, and Compliance (OIC)
                                                                           OIC should complete the barrier identification and elimi-
Follow-Up Review of the                      Office of
                                                                           nation process initiated with the MYAEPP by pinpointing
Office of Opportunity,    2011-PA-106      Opportunity,
                                                                  II.2.a   barriers and determining causes—OIC and the HCMF-
Inclusiveness, and         June 2011       Inclusiveness,
                                                                           WG collaborated to devise and implement an action plan
Compliance                                and Compliance
                                                                           for conducting barrier identification and elimination.




43 • Semiannual Report to the Congress
Table 4B: 	      Significant Recommendations from Previous Semiannual Reports
		               for Which Corrective Action Was Completed During This Period
        Subject           Report No.          Office          Rec. No.     Summary of Recommendation and Action
                          Issue Date
                                                                         OSO should seek commitment from the Librarian and
Follow-Up Review of the                       Office of                  other senior officials to include the OIC Director in se-
Office of Opportunity,    2011-PA-106       Opportunity,                 nior-level discussions and decisions which involve work-
                                                                 IV
Inclusiveness, and         June 2011        Inclusiveness,               force diversification issues—The OIC Director is included
Compliance                                 and Compliance                in senior-level discussions and decisions which involve Li-
                                                                         brary workforce diversification issues.
                                                                         OIC should strengthen its quality controls for assembling
                                                                         MYAEPP data as necessary and ensure that those controls
                                              Office of                  are effectively applied when updating data and analyses for
Multi-Year Affirmative
                          2011-PA-106       Opportunity,                 future plans—This is the first fiscal year of gathering data
Action Employment                                                 I
                          August 2011       Inclusiveness,               using the Monster application system. To ensure quality
Program Plan
                                           and Compliance                control, HRS verifies the Monster data by comparing the
                                                                         Monster reports to the NFC data and EmpowHR for Li-
                                                                         brary employees.
Integrated Support Services (ISS)
Federal Employees’                                                       Revise LCR 2018-5—Revised LCR 2018-5 was issued in
                           2008-PA-102     Health Services
Compensation Act                                                 IV      November 2011 clarifying benefits available, deadlines for
                          September 2008       Office
Program                                                                  filing, and responsibilities of certain Library offices.
                                                                         Develop and implement policies and procedures that pro-
                                                                         vide an organized means for Library organizations and
Retention of Federal      2009-PA-104      Office Systems
                                                                 I.a     employees to conform to federal records management re-
Records                   March 2010          Services
                                                                         quirements—LCR 1920 was issued in February 2012 to
                                                                         conform to federal records management requirements.
Library Services (LS)
                                                                         Develop and implement an automated system to track and
                                                                         account for new acquisitions and establish adequate segrega-
                                                                         tion of duties—Records reflecting the books acquired and
                                                                         received by RBSCD will be annotated as received by the
Rare Book and Special     2008-PA-101
                                           Library Services      I.a     Acquisitions and Bibliographic Access directorate. RBSCD
Collections Security      March 2009
                                                                         will designate a staff member, other than the curator, to as-
                                                                         sign a number to the item when it arrives at RBSCD. Books
                                                                         will then be listed and shelved in arrearage until retrieved by
                                                                         the Rare Book Cataloging team.
                                                                         Revise the guideline letter sent to interested organizations
                           2010-PA-106                                   to ensure it clearly advises the reader of all eligibility re-
Surplus Books Program                    Library Services       I.a.1
                          September 2011                                 quirements—SBP implemented a revised guidance letter
                                                                         in fall 2011.
                                                                         Include on the application wording that advises the par-
                           2010-PA-106                                   ticipant that any fraudulent misrepresentations will be
Surplus Books Program                    Library Services       I.a.3
                          September 2011                                 subject to prosecution under federal law—Implemented
                                                                         in fall 2011.
                                                                         Require selectors to complete all information on the regis-
                                                                         tration form in a clearly written manner and require SBP
                           2010-PA-106                                   staff to verify the registration form is complete and read-
Surplus Books Program                    Library Services       I.a.4
                          September 2011                                 able before permitting access to the participant—Proce-
                                                                         dure implemented fall 2011 requiring SBP staff to verify
                                                                         registration forms are legible and complete.
                                                                         Store Congressional franking labels in a locked and secure
                           2010-PA-106
Surplus Books Program                    Library Services       I.b.1    area—Congressional franking labels are now protected in
                          September 2011
                                                                         a locked cabinet.



                                                                         Semiannual Report to the Congress • 44
Implemented Recommendations
Table 4B: 	     Significant Recommendations from Previous Semiannual Reports
		              for Which Corrective Action Was Completed During This Period
       Subject          Report No.             Office         Rec. No.    Summary of Recommendation and Action
                         Issue Date
Library Services (LS) Continued
                                                                         SBP management should continue to pursue the door
                           2010-PA-106                                   lock and alarm repairs with the Architect of the Capitol
Surplus Books Program                    Library Services       I.d.1
                          September 2011                                 (AOC)—AOC is now remodeling the SBP area, includ-
                                                                         ing replacing the broken door.
                                                                         SBP management should fully document SBP policies and
                           2010-PA-106                                   operating procedures—SBP management has fully docu-
Surplus Books Program                    Library Services      II.b.1
                          September 2011                                 mented SBP policies and operating procedures in an op-
                                                                         erations manual.
                                                                         Prepare future Annual Performance Budgets with format/
Performance-Based          2010-PA-107                                   terminology consistent with eLCplans—LS’ eLCplans
                                           Library Services       I
Budgeting                  January 2011                                  targets are now consistent with LS’ performance budget
                                                                         targets.
                                                                         Develop more outcome-related performance strategies and
Performance-Based          2010-PA-107                                   targets—With guidance provided by the Strategic Plan-
                                           Library Services     II.1
Budgeting                  January 2011                                  ning Office, LS rewrote as outcome related most strategies
                                                                         and targets in FY11.
                                                                         Reevaluate projections of DTBM requirements—NLS
                                                                         reduced by almost 200,000 its projections of DTBM
                          2011-PA-104
NLS Requirements                           Library Services     II.1     requirements and determined that the approximately
                          October 2011
                                                                         545,000 on hand would be adequate to meet demand
                                                                         through FY13.
                                                                         Encourage all network regional libraries/Machine Lend-
                                                                         ing Agencies (MLAs) to periodically review their patron
                                                                         records and remove inactive accounts—NLS encourages
                          2011-PA-104
NLS Requirements                           Library Services     II.2     all MLAs to periodically review their patron records and
                          October 2011
                                                                         remove inactive accounts. NLS incorporated this recom-
                                                                         mendation into the biennial consultant reports and cover
                                                                         letters.
                                                                         NLS should amend its FY12 and 13 budget requests at
                          2011-PA-104                                    least 15 percent each year by reducing the requested fund-
NLS Requirements                           Library Services      III
                          October 2011                                   ing for duplicating new titles—NLS reduced FY12 and
                                                                         13 budget requests as recommended.
                                                                         Collections Access and Loan Management (CALM) should
                                                                         correct items, such as foreign materials, shown with incor-
Follow-Up Review of        2011-PA-107
                                           Library Services     II.1     rect location—CALM has implemented changes including
Not-on-Shelf Rate           May 2011
                                                                         training emphasis to identify and correct catalog location
                                                                         errors for foreign materials.
                                                                         CALM should track whether there is a correlation between
Follow-Up Review of        2011-PA-107
                                           Library Services     II.2     Not-on-Shelf items and cluttered deck shelving—Manage-
Not-on-Shelf Rate           May 2011
                                                                         ment has implemented alternative procedures.
Office of Strategic Initiatives (OSI)
                                                                         Conduct a comprehensive needs assessment of hardware,
                                                                         software, and IT equipment and ensure adequate infra-
                                            Information                  structure is in place to mirror and recover the Library’s
Alternate Computing        2009-IT-101
                                            Technology          I.a.1    critical systems—The initial Continuity of IT Operations
Facility                  September 2009
                                              Services                   Readiness Assessment is completed. ITS found that the
                                                                         necessary resources were in place to support the Library’s
                                                                         tier 1 and 2 systems.



45 • Semiannual Report to the Congress
Table 4B: 	    Significant Recommendations from Previous Semiannual Reports
		             for Which Corrective Action Was Completed During This Period
        Subject        Report No.       Office       Rec. No.     Summary of Recommendation and Action
                       Issue Date
                                                                Coordinate with the service units to develop and con-
                                                                duct tests to verify that users can directly access and use
                                                                the systems and data at the Alternate Computing Facility
                                       Information              (ACF) from remote locations—ITS tested remote access
Alternate Computing    2009-IT-101
                                       Technology      I.c.2    to email during the scheduled power outage in October
Facility              September 2009
                                         Services               2011. ITS also conducted a Momentum failover exercise
                                                                last November and an eCO failover in February 2012.
                                                                Additional testing will occur at the direction of the Li-
                                                                brary’s COOP Working Group.
                                                                Continue to improve the readiness and functionality of
                                                                the ACF data center—The two remaining findings/rec-
                                       Information
Data Center Power      2009-SP-102                              ommendations from the ACF audit have been fully im-
                                       Technology      III.3
Outage Incident       December 2009                             plemented: 1) conducting a comprehensive needs assess-
                                         Services
                                                                ment to implement the ACF; and 2) coordinating with
                                                                service units to test using the ACF from remote locations.




                                                                Above: Detail of a stuccoed Grecian girl by Albert Weinert from the
                                                                dome of the Librarian’s Ceremonial Office.

                                                                Photograph by Carol Highsmith

                                                                Semiannual Report to the Congress • 46
      Funds Questioned or Put to Better Use
          Table 5:	         Audits with Recommendations for Better Use of Funds
                                                                               Number of Audit    Total Funds Put
                                                                                  Reports          to Better Use
          No management decision was made by the start of the period:                  -                 -

          Issued during the period:                                                    -                 -
          In need of management decision during the period:                            -                 -
          Management decision made during the reporting period:
                                                                                                              *
                   Value of recommendations agreed to by management                   1              $55,220

                   Value of recommendations not agreed to by management                -                  -

          No management decision made by the end of the reporting period:

                   Less than 6 months old:                                             -                 -

                   More than 6 months old:




          Table 6:	         Audits with Questioned Costs
                                                                               Number of Audit       Total Ques-
                                                                                  Reports           tioned Costs

          No management decision made by the start of the period:                      -                 -

          Issued during the period:                                                    -                 -
          In need of management decision during the period:                            -                 -
          Management decision made during the reporting period:

                   Value of recommendations agreed to by management                    -                 -

                   Value of recommendations not agreed to by management                -                 -

          No management decision made by the end of the reporting period:
                                                                                                                  *
                   Less than 6 months old:                                            1              $771,163

                   More than 6 months old:                                             -                  -



      *Office of Strategic Initiatives, Information Technology Services: Inadequate Contract Oversight Exposed the
      Library to Questionable Contractor Payments, Audit Report No. 2011-PA-109, March 2012 (see page 19).




47 • Semiannual Report to the Congress
Instances Where Information or
Assistance Requests Were Refused
No information or assistance requests were refused during this period.

Status of Recommendations
Without Management Decisions
During the reporting period there were no recommendations more than six months old without management
decisions.

Significant Revised Management Decisions
During the reporting period there were no significant revised management decisions.

Significant Management Decisions
With Which OIG Disagrees
During this reporting period there were no significant management decisions with which OIG disagreed.

Follow-up on Prior Period Recommendations
In this semiannual period, we followed up on all open recommendations from our prior semiannual pe-
riod. Management’s comments on the status of individual recommendations appear in table 4A. Recom-
mendations management asserts it has implemented during the period appear in table 4B. In order to
confirm that recommendations have been implemented as reported, we perform periodic follow-ups of
selected projects to verify implementation; however, all assertions contained in table 4B are the representa-
tions of management.




                                                                   Semiannual Report to the Congress • 48
Organizational Chart



                                                                 Inspector General
                                                                 Karl W. Schornagel, CPA
                     Counsel to the IG                                                                   Administrative Officer
                     E. Wade Green, Jr.
                                                                                                         Sheetal Gupta
                     (Under Interagency Agreement)




                    Assistant Inspector                                                                Assistant Inspector
                    General for Audits                                                                 General for Investigations
                    Nicholas G. Christopher, JD, CPA                                                   Kenneth R. Keeler




Senior Lead Auditor                        Auditor                                 Special Agent                           Special Agent
John R. Mech                              Elizabeth Valentin                        Pamela D. Hawe                         Thomas E. Williams
CPA                                       CPA, CISA                                (Part-time)                             CCE, ACE, SCERS



Auditor                                    IT Specialist                           Special Agent                           Management Analyst
Walter E. Obando                           Lawrence D. Olmsted                     Hugh D. Coughlin                        Michael R. Peters
CIA, CISA



Auditor                                    Management Analyst                      Investigator
Christine C. Cochrane                      Peter J. TerVeer                        Barbara A. Hennix
CPA



Management Analyst                        Management Analyst
Sarah E. Sullivan                         Jennifer R. Bosch




 49 • Semiannual Report to the Congress
Inspector General Hotline

    Help Promote Integrity, Economy, and Efficiency

Report Suspected Fraud, Waste, Abuse, or Mismanagement

          Complaints May be Made Anonymously




                     Inspector General
                    Library of Congress

              101 Independence Avenue, S.E.
                           LM-630

               Washington, DC 20540 -1060




   Main Telephone Number:           (202) 707-6314

               Fax Number:          (202) 707-6032

 Hotline Telephone Number:          (202) 707-6306

             Hotline Email:         oighotline@loc.gov

                   P.O. Box:        15051 S.E. Station
                                    Washington, DC 20003-9997




      Any information you provide will be held in confidence.
    However, providing your name and a means of communicating
         with you may enhance our ability to investigate.
Office of the Inspector General
101 Independence Avenue, S.E.
            LM-630
 Washington, DC 20540-1060
